              U.S. Department of Energy
              Office of Inspector General
              Office of Audits and Inspections




Audit Report
Fiscal Year 2011 Audit of the Work
Performed Under the Work for Others
Program at the Lawrence Berkeley
National Laboratory




OAS-L-13-10                        June 2013
                                 Department of Energy
                                    Washington, DC 20585

                                         June 24, 2013


MEMORANDUM FOR THE MANAGER, BERKLEY SITE OFFICE


FROM:                    Rickey R. Hass
                         Deputy Inspector General
                           for Audits and Inspections
                         Office of Inspector General

SUBJECT:                 INFORMATION: Audit Report on "Fiscal Year 2011 Audit of the
                         Work Performed Under the Work for Others Program at the Lawrence
                         Berkeley National Laboratory"

BACKGROUND

The attached report presents the results of the audit of Lawrence Berkeley National Laboratory's
(Berkeley) Work for Others (WFO) Program. The Office of Inspector General contracted with
an independent certified public accounting firm, KPMG, LLC (KPMG) to determine whether
Berkeley met the internal control and compliance requirements established by the Department of
Energy (Department) to achieve the current goals and objectives of the WFO Program.

Pursuant to the Atomic Energy Act of 1954, as amended, and the Economy Act of 1932, the
Department provides research and technical assistance to other Federal agencies on a
reimbursable, full cost recovery basis through the WFO Program. For the vast majority of WFO
technical projects, Department officials furnish administrative project oversight while the actual
detailed scientific or technical work is completed by the Department's management and operating
contractors. The WFO agreements are a mechanism through which Federal entities and industry
can utilize expertise and facilities at Berkeley, a Federally Funded Research and Development
Center.

RESULTS OF AUDIT

KPMG concluded that, except for the finding noted below and detailed in the attached report,
Berkeley implemented internal controls and compliance procedures in Fiscal Year (FY) 2011
that met the Department's WFO Program requirements, as stated in Department regulations,
guidance, and applicable contract provisions. Specifically, KPMG found that costs relating to
Berkeley's WFO support organization, the Office of Sponsored Projects and Industry
Partnerships (OSPIP), were included in the general and administration cost pool that is allocated
to both WFO projects and other Department projects on an organization-wide basis, rather than
                                                2


using an allocation base that bears a more direct causal beneficial relationship to the support
organization's costs. KPMG estimated that if the Department implemented a separate indirect
rate for this support organization, the annual savings would be approximately $400,000. KPMG
recommended that Berkeley remove the OSPIP costs from the general and administration
indirect cost pool and establish a separate cost pool for allocating those costs to WFO projects
and other projects supported by the OSPIP on a base that has a more direct causal beneficial
relationship to the OSPIP functions. KPMG also stated that the Berkeley Site Office should
consider the cost-benefit of implementing the recommendation.

Further, KPMG noted that corrective action from a September 2010 Berkeley Internal Audit
Division Time and Effort Reporting audit related to the accuracy of labor distribution to WFO
and the Department's non-WFO projects had not been implemented as of October 31, 2012. This
would have affected the accuracy of time charged to WFOs during FY 2011. Because a revised
implementation timeline has been agreed to by Berkeley, KPMG did not repeat that finding and
recommendation in the report.
Berkeley officials explained that all WFO agreements are added to Berkeley's funding and
support the Department's mission. In addition, Berkeley stated that the indirect pool is composed
of a variety of functions, all of which provide a differential benefit to each project. These
functions are available to all projects and, in aggregate, the benefit to each is equitable. KPMG
recognized Berkeley's position that the current allocation method results in an immaterial
inequitable distribution of WFO support costs between WFO and other Department projects.
Nevertheless, the cost of implementing a separate indirect rate for the WFO support costs would
be a one-time development cost.

RECOMMENDATION

We recommend that the Manager, Berkeley Site Office, ensure that Berkeley consider the cost-
benefit of removing the OSPIP costs from the general and administration indirect cost pool and
establish a separate indirect cost pool for allocating those costs to WFO projects and other
projects supported by the OSPIP on a base that has a more direct causal beneficial relationship to
the OSPIP functions.

MANAGEMENT COMMENTS AND AUDITOR RESPONSE

The Berkeley Site Office did not agree with the finding and recommendation made in the report,
as they believe that the current allocation method complies with Cost Accounting Standards. We
note, however, that it is important to consider the proper allocation of the WFO support costs
because the Department's WFO Program regulations and guidance requires that the WFO
projects bear the full cost of operating that program.

PERFORMANCE AUDIT

KPMG conducted the performance audit in accordance with Government Auditing Standards
issued by the Comptroller General of the United States and the Office of Inspector General Audit
Manual as appropriate. Government Auditing Standards require that KPMG plan and perform
the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our findings
and conclusions based on the audit objective.
                                               3


The Office of Inspector General monitored the progress of the audit and reviewed the report and
related documentation. Our review disclosed no instances in which KPMG, did not comply, in
all material respects, with the audit requirements. KPMG is responsible for the attached report
dated June 6, 2013, and the conclusions expressed in the report.

Attachment

cc: Acting Under Secretary for Science
    Acting Director, Office of Science
    Deputy Secretary
    Chief of Staff
    Attachment




1
    Attachment (continued)




2
    Attachment (continued)




3
    Attachment (continued)




4
    Attachment (continued)




5
    Attachment (continued)




6
    Attachment (continued)




7
    Attachment (continued)




8
    Attachment (continued)




9
     Attachment (continued)




10
     Attachment (continued)




11
     Attachment (continued)




12
     Attachment (continued)




13
     Attachment (continued)




14
                                                                   IG Report No. OAS-L-13-10

                          CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if applicable to you:

     1. What additional background information about the selection, scheduling, scope, or
        procedures of the audit or inspection would have been helpful to the reader in
        understanding this report?

     2. What additional information related to findings and recommendations could have been
        included in the report to assist management in implementing corrective actions?

     3. What format, stylistic, or organizational changes might have made this report's overall
        message more clear to the reader?

     4. What additional actions could the Office of Inspector General have taken on the issues
        discussed in this report that would have been helpful?

     5. Please include your name and telephone number so that we may contact you should we
        have any questions about your comments.


Name                                         Date

Telephone                                    Organization

When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                              Office of Inspector General (IG-1)
                                    Department of Energy
                                   Washington, DC 20585

                                 ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact our office at (202) 253-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly
and cost effective as possible. Therefore, this report will be available electronically through the
                                Internet at the following address:

              U.S. Department of Energy Office of Inspector General Home Page

                                       http://energy.gov/ig

  Your comments would be appreciated and can be provided on the Customer Response Form.
